                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: AlO030021                                                                                  Page 1 of 1



                 NSF DIG received numerous allegations related to NSF employees J within one NSF
         division. 2 The primary allegation concerned employees gaining unauthorized access to ITAS
         (the Integrated Time and Attendance System) from remote locations outside NSF facilities, and
         signing in and out while not physically present at NSF.3 Our review of the employees' records
         and our employee interviews did not substantiate these allegations. Similarly, no evidence was
         found to substantiate the other allegations, which included improper use of NSF funds to pay for
         employee training, improper hiring practices, and other timecard abuses.

                   Accordingly, this case is closed with no further aCtion taken.




         3 Personnel rules at NSF require employees to use ITAS only while on NSF premises. In fUliherance ofthis rule,
         NSF implemented ITAS as a local workstation application not available to remote users. We established, however,
         that a technique existed to circumvent NSF's implementation ofITAS and obtain remote access, creating the
         potential for employees using this technique to log work time while not doing any actual work. NSF subsequently
         took remedial measures to prevent the use ofthis technique.




NSF DIG Form 2 (11/02)
